<html>
<title> - DISRUPTER SERIES: ADVANCED MATERIALS AND PRODUCTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





          DISRUPTER SERIES: ADVANCED MATERIALS AND PRODUCTION

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2017

                               __________

                           Serial No. 115-11





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-297                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     2
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................     7

                               Witnesses

James M. Tour, W.F. Chao Professor of Chemistry, Professor of 
  Computer Science, and Professor of Materials Science and 
  Nanoengineering, Smalley Institute for Nanoscale Science & 
  Technology, Rice University....................................     9
    Prepared statement...........................................    11
Keith Murphy, Chairman and Chief Executive Officer, Organovo 
  Holdings, Inc..................................................    20
    Prepared statement...........................................    22
Afsaneh Rabiei, Professor, Department of Mechanical and Aerospace 
  Engineering, North Carolina State University...................    29
    Prepared statement...........................................    31
Hota Gangarao, Maurice A. and Jo Ann Wadsworth Distinguished 
  Professor of CEE, CEMR, Director, Constructed Facilities 
  Center, West Virginia University...............................    36
    Prepared statement...........................................    38
Shane E. Weyant, Chief Executive Officer And President, Creative 
  Pultrusions, Inc...............................................    48
    Prepared statement...........................................    50

 
          DISRUPTER SERIES: ADVANCED MATERIALS AND PRODUCTION

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:03 p.m., in 
room 2322, Rayburn House Office Building, Hon. Robert Latta, 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Harper, Burgess, Lance, 
Guthrie, McKinley, Kinzinger, Mullin, Walters, Costello, Walden 
(ex officio), Schakowsky, Matsui, Kennedy, and Pallone (ex 
officio).
    Staff Present: Blair Ellis, Digital Coordinator Press 
Secretary; Melissa Froelich, Counsel, Digital Commerce and 
Consumer Protection; Giulia Giannangeli Legislative Clerk, 
Digital Commerce and Consumer Protection/Environment; Alex 
Miller, Video Production Aide and Press Assistant; Paul Nagle, 
Chief Counsel, Digital Commerce and Consumer Protection, Olivia 
Trusty, Professional Staff Member, Digital Commerce and 
Consumer Protection; Madeline Vey, Policy Coordinator, Digital 
Commerce and Consumer Protection; Hamlin Wade, Special Advisor, 
External Affairs, Everett Winnick, Director of Information 
Technology; Michelle Ash, Minority Chief Counsel, Digital 
Commerce and Consumer Protection; Jeff Carroll, Minority Staff 
Director; Lisa Goldman, Minority Counsel; Caroline Paris-Behr, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Outreach and Member Services; and C.J. Young, 
Minority Press Secretary.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. The Subcommittee on Digital Commerce and 
Consumer Protection will now come to order; and the chair 
recognizes himself for 5 minutes for an opening statement.
    And pardon me, I get down here after about 12 hours, and my 
allergies already start kicking in, even with the snow.
    And I also need to just let the witnesses know that we also 
have the Energy and Commerce's Subcommittee on Energy is 
meeting right now or in the next 15 minutes. You are going to 
have members coming in and out, because both subcommittees are 
meeting at the same time.
    But again, good afternoon and welcome to the first hearing 
of the Disrupter Series in the 115th Congress. I would like to 
thank all of our witnesses for their flexibility with the time 
change, given the weather challenges of the past 2 days. The 
continuation of the Disrupter Series ensures that the Digital 
Commerce and Consumer Protection Subcommittee continues to 
learn about the cutting-edge developments across industry.
    I am excited to continue this series. As chairman, I look 
forward to more hearings, including tomorrow's hearing on smart 
communities. Today, we are focused on advanced materials and 
production methods. The panel of witnesses are experts in a 
number of different fields, from graphene and other 
nanoparticles to bio-ink and techniques to 3D print human 
tissue. We also have experts in new materials and fabrication 
methods, developing plastics, metals, and composite materials.
    The potential for each of these materials, and even those 
that may not be represented on the panel today, are subject to 
the health of the U.S. economy and the willingness of public 
and private investors to take some of the amount of the risk.
    The applications of these materials is seemingly endless: 
infrastructure, energy, telecommunication, automobiles, health 
care, aerospace, transportation, and more.
    The path to future applications and investment in early-
stage development can be uncertain, given immediate capital 
investment requirements. However, on the other end of the 
equation is the potential for the improved safety and long-term 
cost savings. There should be a full vetting of the costs and 
benefits as we examine potential use cases for the advanced 
materials.
    Moreover, if we are serious about improving safety, 
bringing consumers more and better options, and ensuring 
manufacturing jobs with that Made in America label, then we 
must be leaders in the development and application of these 
materials.
    Basic research and development of new materials often is a 
result of an accidental discovery or an unexpected result. 
There is a tumultuous path for many materials from discovery to 
commercialization. U.S. job growth and material science and 
engineering is dependent on the health of individual industries 
over the next 5 to 10 years.
    I look forward to hearing from our witnesses about their 
experiences along this development chain and how the 
government, at any level, is either helping or hindering 
further development of the U.S. innovation in material science 
and advanced production methods.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good afternoon and welcome to the first hearing of the 
Disrupter Series in the 115th Congress. I would like to thank 
all of the witnesses for their flexibility with time change 
given all of the weather challenges over the last two days. The 
continuation of the Disrupter Series ensures that the Digital 
Commerce and Consumer Protection Subcommittee continues to 
learn about the cutting-edge developments across industries. I 
am excited to continue this series as Chairman and I look 
forward to more hearings, including tomorrow's hearing on Smart 
Communities.
    Today we are focused on advanced materials and production 
methods. The panel of witnesses are experts in a number of 
different fields from graphene and other nanoparticles to bio-
ink and techniques to 3D print human tissue. We also have 
experts in new materials and fabrication methods developing 
plastics, metals, and composite materials. The potential for 
each of these materials, and even those that may not be 
represented on the panel today, are subject to the health of 
the U.S. economy and the willingness of public and private 
investors to take on some amount of risk.
    The applications for these materials is seemingly endless: 
infrastructure, energy, telecommunications, automobiles, health 
care, aerospace, transportation, and more. The path to future 
applications, and investment in early stage development, can be 
uncertain given immediate capital investment requirements. 
However, on the other end of the equation is the potential for 
improved safety and long-term cost savings. There should be a 
full vetting of the costs and benefits as we examine potential 
use cases for advanced materials.
    Moreover, if we are serious about improving safety, 
bringing consumers more and better options and ensuring 
manufacturing jobs here in America then we must be leaders in 
the development and application of these materials.
    Basic research and development of new materials often is a 
result of an accidental discovery or an unexpected result. 
There is a tumultuous path for many materials from discovery to 
commercialization. U.S. job growth in materials science and 
engineering is dependent on the health of individual industries 
over the next 5-10 years.
    I look forward to hearing from the witnesses' about their 
experiences along this development chain and how the 
government--at any level--is either helping or hindering 
further development of U.S. innovation in materials science and 
advanced production methods.

    Mr. Latta. And I think I have a little bit of time left, 
and any members on our side that would like to make an opening 
statement? Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman, and good afternoon.
    I would like to welcome everyone to today's important 
hearing on advanced materials and production. We are excited 
about this panel on this topic to learn more about some of the 
latest developments in material sciences and how they have the 
potential to revolutionize our industries and electronics and 
health care.
    But I am particularly interested in learning more about the 
development and commercial applications of graphene. To the 
rest of the committee, that is a fascinating material that is 
one atom thick. It is the thinnest material made by man, 
lightweight, transparent, and 200 times the strength of steel, 
and holds great promise. Not only that, but also is a 
semiconductor and in composite construction.
    So additionally, I would like to extend a special welcome 
to one of our witnesses, Dr. Hota GangaRao, with whom, actually 
professionally, we have worked together on some projects. He is 
from West Virginia University in Morgantown. And Dr. GangaRao 
is a Maurice and Jo Ann Wadsworth Distinguished Professor of 
Civil and Environmental Engineering at WVU, and has done 
extensive research on the use of composite materials in 
infrastructure projects.
    Dr. GangaRao, I thank you for traveling here today. I ran 
through that storm yesterday for 5 hours in the snow, and I saw 
four or five cars over in the ditch. So hopefully, you didn't 
have the same experience that I had coming over yesterday.
    So, for the rest of you, we look forward to thoughtful 
discussion with each of you. And I apologize, because I am 
going to be one, I am in that other committee. I am going to be 
back and forth here on this, but I want to get back and learn 
more about this.
    So I yield back the balance of my time.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And at this time, the chair would now recognize the 
gentlelady from California for opening remarks.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Chairman Latta, and I am 
here instead of the Ranking Member Schakowsky, who is trying to 
get out of Chicago. So I think you will understand that.
    I am glad that some of us are here today, and thank you all 
for the witnesses for your flexibility on our scheduling. We 
can't control the weather, as you know.
    This hearing continues the subcommittee's Disrupter Series, 
where we look at innovative products and technologies. Today, 
we are looking at advanced materials. Our research institutions 
have been driving this innovation forward. For instance, the 
University of California's 10 campuses are doing some of the 
most cutting-edge research in the world. They regularly lead 
all universities in the number of patents filed each year. The 
university's materials research has been pivotal in many 
fields, but the work being done at UC Davis is particularly 
impressive. UC Davis engineers have been using 3D printing 
technology to create personalized, medically accurate models of 
organs. These models help surgeons determine the best approach 
for operating on a patient, or whether an operation would be 
helpful at all.
    Researchers at UC Davis have also developed technology that 
integrates renewable organic materials into water bottles. 
Currently, a plant in my district makes bottles that are 80 
percent renewable, and they have a 100 percent renewable goal 
in sight. These advanced materials and many more being 
developed and already in use could make it much easier for us 
to reach environmental and sustainability goals.
    Manufacturers can already use an aluminum-steel alloy that 
is lighter and stronger than conventional steel. That could 
mean lighter cars that require less energy. Permeable concrete 
could reduce flooding and help remove contaminants in 
groundwater. Our witnesses have many other examples of the ways 
that composite materials can benefit our communities. The 
possibilities are exciting; the question is how we get there. 
Many of these materials were developed through Federal research 
dollars.
    Professor Rabiei lists in a written testimony the many 
funding sources her team used to develop composite metal foam, 
which include the National Science Foundation, NASA, the 
Department of Energy, and the Department of Transportation. 
Those agencies' funds largely come from nonDefense 
discretionary appropriations, and today, those funds are at 
risk. The President has suggested cutting nonDefense 
discretionary spending by $54 billion in fiscal year 2018. That 
is not just cutting excess spending; these cuts could 
jeopardize our national competitiveness.
    This would impair our ability to invest in the country's 
economic future. It would leave our researchers underfunded, 
and allow other countries to claim global leadership, instead 
of encouraging homegrown innovation. If we want continued 
innovation, we need to invest in the research that makes it 
happen. That starts with protecting non-Defense discretionary 
spending in this year's budget.
    I look forward to hearing more from our witnesses about how 
federally funded research has supported development of advanced 
materials. I am also interested in the challenges of moving 
from research to market.
    Thank you all for being here, and I look forward to your 
testimony.
    And I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    The chair now recognizes the chairman of the full 
committee, the gentleman from Oregon, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman.
    I want to welcome our witnesses and I really appreciate 
your testimony, which I have enjoyed reading through.
    Thank you. Again, thank you for what you are doing. This 
subcommittee is really, really important in the work of the 
Energy and Commerce Committee. It gets labeled as a Disrupter 
Subcommittee in the sense that with all these new technologies 
and innovations in the private sector, and the partnerships 
with the public education institutions and all, there are some 
amazing things we are standing on the cusp of. And so we have 
held several hearings over the last few years on emerging 
technologies and as part of the Disrupter Series, from the 
internet of things and health apps to drones and robotics, 
revolutionary capabilities with 3D printing. Many of these 
technologies are literally transforming commerce and creating 
new opportunities for economic prosperity for Americans and for 
generations to come.
    Today, our Disrupter Series continues with a look at 
innovative materials and production methods that are the 
building blocks for some of the emerging technologies that 
could change how we see the world.
    The work that is taking place at our universities around 
the country, truly groundbreaking. Today is an opportunity to 
learn firsthand from you, the top minds in academia. We want to 
learn about your full spectrum of work, and how basic research 
and how you shepherd this through your projects to 
commercialization. As my friend from West Virginia talked about 
with graphene, hailed as this discovery that will do for the 
internet of things what silicon did for the chip industry. We 
have not reached the point of mass commercialization, I 
understand, but there have been advances in patenting and 
licensing, and these are really important discoveries for some 
applications.
    Additionally, composite materials incorporating graphene 
have increased strength and conductivity properties that are 
not found in more traditional materials. These composites could 
have interesting applications in the automotive and 
infrastructure space. So I look forward to hearing from Dr. 
Tour about his work on graphene and the U.S.' position relative 
to other nations.
    There is also the opportunity to work with traditional 
materials to create new composites that could solve some of the 
competing cost and safety questions. For example, new bridges 
and car bumpers could both benefit from taking into 
consideration new technologies.
    So I am interested in hearing from our panelists in 
industry and academia about their experience approaching 
investors and clients about their products and services. So, as 
we look at the relationship between job creation and our 
Nation's infrastructure, it is crucial we understand the 
marketplace and what is currently under development.
    Remember, simply because a material is new does not mean 
that it is a realistic replacement for some traditional 
material. However, there may be improved safety benefits and 
long-term repair and replacement cost savings in some cases. 
These are all worthwhile considerations for stakeholders to 
consider and important factors that we look forward to hearing 
from you all today on.
    I will admit up front, I have to go down to the Energy 
Subcommittee and give an opening statement there and hope to 
bounce back and forth, but I do have your testimony here. And 
you are in able hands with our terrific chairman of the 
Subcommittee on Digital Commerce and Consumer Protection, DCCP, 
which is not a Russian acronym. It may look like that, but it 
is not.
    And with that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    In the last Congress, this subcommittee examined several 
emerging technologies that are creating new opportunities for 
economic growth, job creation, and increasing consumer choice 
in today's increasingly digital world. From the Internet of 
Things and health apps, to drones and robotics, and the 
revolutionary capabilities of 3D printing, many of these 
technologies are transforming commerce and creating new 
opportunities for economic prosperity in America for 
generations to come.
    Today our Disrupter Series continues with a look at 
innovative materials and production methods that are the 
building blocks for some of the emerging technologies that 
could change how we see the world. The work that is taking 
place at universities around the country is truly 
groundbreaking and today is an opportunity to learn first-hand 
from some of our top minds in academia. I look forward to 
hearing about the full spectrum of their work--from basic 
research to how they shepherd their projects through to 
commercialization.
    For example, graphene is hailed as a discovery that will do 
for the Internet of Things what silicon did for the chip 
industry. We have not reached the point of mass 
commercialization yet; however, there have been advancements in 
patenting and licensing these discoveries for some 
applications.
    Additionally, composite materials incorporating graphene 
have increased strength and conductivity properties that are 
not found in more traditional materials. These composites could 
have interesting applications in the automotive and 
infrastructure space. I look forward to hearing more from Dr. 
Tour about his work on graphene and the U.S.'s position 
relative to other nations.
    There is also the opportunity to work with traditional 
materials and create new composites that could solve some of 
the competing cost and safety questions. For example, new 
bridges and car bumpers could both benefit from taking into 
consideration new technologies. I am interested in hearing from 
our panelists in industry and academia about their experience 
approaching investors and clients about their products and 
services.
    As we look at the relationship between job creation and our 
nation's infrastructure it is critical that we understand the 
marketplace and what is currently in development. Remember, 
simply because a material is new does not mean that it is a 
realistic replacement for more traditional materials. However, 
there may be improved safety benefits and long-term repair and 
replacement cost savings in some cases. These are all 
worthwhile considerations for stakeholders to consider and 
important factors I look forward to discussing today.
    I am pleased that the Disrupter Series is continuing this 
Congress, and I look forward to hearing from today's witnesses. 
Thank you for being here.

    Mr. Latta. Thank you very much, Mr. Chairman. And, as I 
mentioned, we do have members that will be coming in and out.
    But at this time, the chair recognizes the gentleman from 
New Jersey, the ranking member, for his opening statement of 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing gives us the opportunity to explore some 
ways in which science and scientific research is allowing us to 
improve materials already in use or create new materials that 
are more adaptable to the needs of consumers and industry.
    Advanced materials can be found in almost every industry 
sector. In the aerospace field, a new material composed of a 
multilayer lamination of glass and plastic is being used in 
helicopters and planes to make stronger and more durable 
windshields. Advanced materials research is also happening with 
regard to a wide range of consumer products.
    As one example, researchers are working on creating 
batteries that are more stable and safer than the common 
Lithium ion batteries used in so many consumer electronics. 
Just this week in a tragic accident in Harrisburg, 
Pennsylvania, a toddler died as a result of an exploding 
hoverboard. Safer batteries would prevent these kinds of 
tragedies from occurring.
    And today, we are fortunate to have Professor Rabiei--I 
hope I pronounced it properly--who is here to describe how 
advanced materials are used to create protective armor, armor 
that has been described as metal bubble wrap. This metal wrap 
can be used to protect individuals as well as to protect 
multiple personnel in vehicles and other forms of 
transportation.
    Now, some of these successes in advanced materials 
resulted, in part, from the Federal Government's investment in 
basic scientific research. As with all new scientific 
breakthroughs, funding for research and development is 
paramount, and the Federal Government is the largest financial 
supporter of basic research. The return on publicly funded 
scientific research and development, R&D, is well-established, 
and Federal support of this kind of innovation is a key to the 
success of America's economy.
    In 2011, President Obama established the Materials Genome 
Initiative, that has invested more than $500 million in Federal 
funding to discover and deploy advanced materials. President 
Obama also established the National Network for Manufacturing 
Innovation, a network of nine federally supported advanced 
manufacturing research institutes throughout the country.
    These institutes have provided research centers to 
academia, industry, and government for testing as well as 
opportunities to collaborate with others in their fields, or 
complementary fields of expertise. These institutes work on 
lightweighting vehicles so that they are more energy-efficient, 
but still just as strong and safe. They are also promoting 3D 
printing and manufacturing, develop the fabrics of tomorrow 
that will act as connected devices, and help commercialize 
advanced resin and fiber composites that have a longer room 
temperature shelf life.
    So America's leadership in advanced materials and other 
important R&D may be at risk, based on the preliminary budget 
summaries we have seen from the Trump administration. We should 
not walk away from the significant efforts made or the public 
funds that have made these advances possible. The U.S. should 
be the most attractive place to research, develop, 
commercialize, and produce advanced materials. These are some 
of the jobs of the future, and we should do everything we can 
to continue to support this important R&D work so that these 
jobs stay here in the United States rather than go abroad.
    So I am pleased that the subcommittee will have the 
opportunity today to learn more about advanced materials from 
those who know it best, the panel. Science, engineering, and 
technology are together creating jobs, good jobs for Americans, 
and I hope to see that continue.
    But, again, I have to apologize, because I am going to run 
to the other committee and then come back as well. So I may 
miss some or all of your testimony. But thank you all for being 
here.
    And I yield back, Mr. Chairman.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back.
    And, again, I want to thank the witnesses for being with us 
today. And, again, I apologize. We have members that will be 
back and forth throughout the hearing upstairs and downstairs 
here.
    But, again, I want to, again, thank today's witnesses, and 
witnesses will have the opportunity to give opening statements, 
followed by a round of questions from the members.
    On our witness panel for today's hearing will include, and 
I would like to just go through. I know the gentleman from West 
Virginia has already given one, but I will give it again.
    Dr. James M. Tour, T.T. and W.F. Chao Professor of 
Chemistry, Computer Science, Material Science, and 
Nanoengineering, at the Smalley Institute of Nanoscale Science 
and Technology at Rice University; Mr. Keith Murphy, Chairman 
and Chief Executive Officer at Organovo Holdings, Inc.; Dr. 
Afsaneh Rabiei, Professor of Mechanical and Aerospace 
Engineering at North Carolina State University; Dr. Hota 
GangaRao, Maurice A. and Jo Ann Wadsworth Distinguished 
Professor of Civil and Environmental Engineering, Director of 
Constructed Facilities Center, and Director of Center for 
Integration of Composites into Infrastructure at West Virginia 
University; and Mr. Shane Weyant, who is the Chief Executive 
Officer and President at Creative Pultrusions, Inc.
    We appreciate you all being here today, and we are going to 
begin the panel with Dr. Tour. And you are now recognized for 5 
minutes for your opening statements. And, again, thank you very 
much for being with us.

    STATEMENTS OF DR. JAMES M. TOUR, W.F. CHAO PROFESSOR OF 
  CHEMISTRY, PROFESSOR OF COMPUTER SCIENCE, AND PROFESSOR OF 
 MATERIALS SCIENCE AND NANOENGINEERING, SMALLEY INSTITUTE FOR 
NANOSCALE SCIENCE & TECHNOLOGY, RICE UNIVERSITY; KEITH MURPHY, 
 CHAIRMAN AND CHIEF EXECUTIVE OFFICER, ORGANOVO HOLDINGS INC.; 
  DR. AFSANEH RABIEI, PROFESSOR, DEPARTMENT OF MECHANICAL AND 
 AEROSPACE ENGINEERING, NORTH CAROLINA STATE UNIVERSITY; HOTA 
    GANGARAO, MAURICE A. AND JO ANN WADSWORTH DISTINGUISHED 
   PROFESSOR OF CEE, CEMR, DIRECTOR, CONSTRUCTED FACILITIES 
   CENTER, WEST VIRGINIA UNIVERSITY; AND SHANE WEYANT, CHIEF 
  EXECUTIVE OFFICER AND PRESIDENT, CREATIVE PULTRUSIONS, INC.

                 STATEMENT OF DR. JAMES M. TOUR

    Mr. Tour. Thank you. I am here to discuss graphene and 
establishing U.S. preeminence in the field of this disruptive 
advanced material. What is graphene? It is a sheet of graphite, 
one atom thick. At the atomic scale, it looks like chicken 
wire. I am a professor of chemistry, material science, and 
nanoengineering at Rice University. I have 625 research 
publications, 155 of those being on the topic of graphene. I 
also have 112 patents on graphene, ranking me as the third most 
prolific graphene inventor in the world and number one in the 
U.S. Our research on graphene has led to the formation of five 
nanomaterials and nanomedicine companies, plus suites of 
licenses to existing large multinational companies.
    The U.S. is no longer leading in graphene research and has 
already lost in graphene production capabilities. Without 
investment to leverage the private sector, we will cede this 
advanced material to foreign competitors. At its size scale, 
graphene is tops for toughness, heat conduction, electrical 
mobility, and lightweight. From a safety standpoint, we have 
shown graphene to be nontoxic and environmentally friendly in 
many respects. A nanomaterial cannot merely be sprinkled like 
pixie dust into a composite or device to show beneficial 
behavior, but with persistence and investment, the advances can 
be realized.
    The number of graphene patents rose rapidly during the last 
5 years. In 2015, it surpassed the cumulative patent pool of 10 
related main groups of technologies. That means that the 
country that dominates in graphene will dominate in high-
technology advances for decades to come. It is now like a space 
race. China has 25 percent more graphene patents than does the 
U.S. Of the top 20 entities in the world that hold graphene 
patents, eight are foreign-owned companies versus three U.S. 
companies. Eight are foreign universities, all in Asia, while 
only one U.S. university is on that list, namely, Rice 
University.
    The worldwide market for graphene is a few tens of millions 
of dollars per year, but now rapidly rising. Bulk-scale 
production of graphene is an initial part of those revenues, 
but that is not where the most value resides. The greatest 
value is from ownership of the innovative techniques to apply 
graphene in advanced applications that were formerly 
unforeseen, like in ultrahigh-frequency supercapacitors, or 
medical device formulations that regenerate damaged spinal 
cords within a few weeks to near perfect function. These are 
two technologies that we have witnessed in our own laboratory.
    The country with the best researchers and the easiest route 
to entrepreneurial success will be preeminent. But the U.S. 
universities are trailing way behind Asian universities in 
high-tech equipment for nano-analysis and basic research. This 
is the result of diminished Federal support for academic 
science.
    Grimmer, however, has been the dramatic loss of our top 
young investigators from pursuing academic positions, due to 
the diminished research funds to universities on a per-
researcher basis. Our top international students, who formerly 
always remained in the U.S. to become professors, are returning 
to their home countries upon graduation, taking our advanced 
technology expertise with them. Even more frightening, some of 
our top U.S. established senior professors are moving abroad in 
order to keep their programs funded. Foreign universities are 
trolling in the U.S. academies for our top professors. 
Previously, the U.S. was the recipient of the world's most 
talented, profiting from the brain drain of other nations. Now, 
the U.S. is being drained. Sadly, it will take decades to 
recover from what we have already lost.
    I have three recommendations to correct these problems and 
ensure that the United States is preeminent in graphene 
advanced materials:
    First, Congress should consider the rapid initiation of a 
$200 million-per-year program administered over 4 years through 
the standard Federal science funding agencies, and $7 million-
per-year multi-investigator programs, requiring strong in-kind 
university and corporate partner matching, and dedicated 
facilities, equipment, and personnel. That way, the Federal 
money will be leveraged to produce 50 percent more from 
university development campaigns, and industrial partners. 
Programs like the NSF's Innovation Corps could assist in the 
translation of technology to industry. This is shovel-ready 
science, and should be thought of in the same way that Congress 
is addressing infrastructure investment.
    Second, we must keep our start-up companies in the U.S. My 
last three companies were started abroad, but if the U.S. 
corporate tax rate were reduced to 15 percent, we would gladly 
remain in the U.S.
    Finally, streamline the Green Card process for scientists 
and engineers that received their Ph.D.s in the U.S. We need 
them.
    In closing, Asia is leading in graphene research and 
commerce, but I think the U.S. could pull ahead with a little 
help from the Federal Government. If our congressional leaders 
would do that, we would beat the pants off our foreign 
counterparts.
    [The prepared statement of Mr. Tour follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Latta. Thank you very much, I appreciate your 
testimony.
    Mr. Murphy, you are recognized for 5 minutes.

                   STATEMENT OF KEITH MURPHY

    Mr. Murphy. Thank you. Good morning, Chairman Latta, 
Congresswoman Matsui, and members of the subcommittee. Thank 
you for inviting me today to discuss Organovo and the 
capabilities of our 3D bioprinted human tissue models. 
Bioprinted 3D human tissue models are disrupting the drug 
discovery process, because they give researchers and regulators 
new testing tools and capabilities to make drug discovery 
safer, speedier, more likely to find breakthrough drugs in new 
areas, and less costly, and because they enable future 
implantable tissue therapies to restore or cure failing organ 
function and address the long waiting list for organ 
transplant.
    What is 3D bioprinting? An office printer uses ink to print 
on paper; and industrial 3D printers use liquid, plastic, or 
metals to print machine parts or prototypes. We at Organovo use 
human cells to make bioink that is deposited by a bioprinter 
which layers the bioink onto a surface to form organic, living 
3D human tissue. Bioprinted model tissues have been shown to 
replicate the key elements, architecture, and function of 
living, native human tissues. Bioprinted tissues for transplant 
have been demonstrated to have powerful potential to treat 
serious illness by direct transplant into patients.
    I have submitted slides along with the written testimony 
that will help you visualize the manufacturing process, where 
we fit into the current drug discovery process, the current 
progress in transplantable tissues, and examples of the peer-
reviewed data we have used to validate the capabilities of our 
bioprinted tissues.
    Founded in 2007, Organovo is based in San Diego, 
California, and has grown from the back room of my house--we 
couldn't afford a garage--to be 120 employees and 45,000 square 
feet in 10 years. We perform research, build 3D bioprinters, 
print tissue models, and run our testing services out of our 
headquarters building, which Congresswoman Walters has visited.
    Our customers and partners include almost half of the 
world's top pharmaceutical companies and leading academic 
research centers. There is diversity of organ tissues to 
replicate--liver, kidney, and others--and potential commercial 
applications beyond drug discovery, such as cosmetics and 
chemical testing. There are wide-ranging applications for the 
Department of Defense, including everything from delivering 
testing tissues for developing protections against biological 
attack to creation of tissues to replace function lost by 
wounded warriors.
    From 1990 to 2010, 73 percent of phase 3 clinical trials 
failed due to toxicity or lack of efficacy. In 2012 alone, 10 
late-stage clinical trial failures cost innovators $7 to $10 
billion in losses.
    Organovo's 3D human tissue models are currently being used 
by drug manufacturers to give researchers the ability to look 
to see if the drug is working, how it is being metabolized over 
time, and whether it is producing toxic side effects. These 
models are also being used to help improve the safety and 
efficacy of potential drugs currently progressing through human 
trial phases.
    3D human tissue models also can be used to help improve the 
post market safety understanding of approved products. For 
example, a recent study using 3D bioprinted liver tissues 
modeled drug-induced liver injury to investigate the effects of 
Trovafloxin, a drug withdrawn from the market due to acute 
liver failure in patients. The study found that 3D bioprinted 
liver tissues identified significant Trovafloxin liver toxicity 
after just 7 days of exposure. In contrast, Trovafloxin did not 
show strong toxicity signals in common traditional 2D in vitro 
systems, or in animal models.
    A December paper coauthored by the head of FDA's Center for 
Toxicological Research concluded that both researchers and 
regulators should prioritize and quickly adopt the use of 3D 
bioprinted human tissue models.
    We are pleased that both the 21st Century Cures legislation 
and the draft Prescription Drug User Fee Act (PDUFA) VI 
agreement take steps to encourage the use and adoption of new 
drug discovery tools. However, it should be fine-tuned to 
accelerate the adoption of currently available technologies 
with existing validating proof versus longer-term technologies 
not yet available.
    We are grateful that committee members introduced 
legislation, the Patient Safety and Toxicology Modernization 
Act, requiring FDA to issue guidance by the end of 2018. We 
hope that the committee includes this legislation in PDUFA VI, 
to ensure FDA prioritizes adoption of commercially available 
and proven discovery tools that can speed and lower the cost of 
drug discovery.
    Organovo's 3D bioprinting technology also is being used to 
develop first-in-class implantable tissues that cure or 
meaningfully restore a patient's organ function. There remains 
a tremendous gap between patients waiting for organ transplants 
and those who receive them. In 2015, roughly 120,000 Americans 
were waiting for an organ transplant and only 30,000 patients 
received them.
    Organovo's data shows survival and sustained functionality 
of our 3D bioprinted human liver tissue when implanted into 
animal models. Our implantable tissue showed encouraging 
evidence of the potential to restore organ function and to 
treat inborn errors of metabolism.
    The FDA will soon have cell-based bioprinted tissue therapy 
applications under review. We are grateful that the 21st 
Century Cures legislation not only created a new regenerative 
medicine pathway at FDA without lowering safety standards, but 
also provided greater clarity on how FDA will review so-called 
combination products. Global regulatory agencies in Europe and 
Japan already have implemented regenerative medicine pathways. 
FDA's clear, timely, and collaborative implementation of 
relevant 21st Century Cures provisions will help ensure that 
regenerative medicine innovation, research, and clinical trials 
remain in the U.S.
    Thank you again for inviting me to participate in today's 
hearing. I am happy to answer questions related to my submitted 
testimony or slides.
    [The prepared statement of Mr. Murphy follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Latta. Well, thank you very much. We appreciate your 
testimony.
    And at this time, we will recognize Dr. Rabiei for 5 
minutes for your statement. Thank you very much.

                  STATEMENT OF AFSANEH RABIEI

    Ms. Rabiei. Good afternoon. Thank you very much for the 
invitation. It is an honor to be here and to introduce our 
material. I decided to use my slides because I believe that 
seeing is believing. So it is a new material. I am very excited 
to see that there is an attention to advanced materials.
    My name is Afsaneh Rabiei, and I am a professor at North 
Carolina State University, and there is a link to my Web site 
for more information about what we are doing.
    We are learning from nature, and the art of engineering is 
to watch what happens in nature and learn from it. So if you 
look at the slides, we have our brain encapsulated in skull, 
which is a porous material, bird's wing, leaves, bone, trees. 
Everything is benefiting from a porous structure filled with 
air. And speaking of air, earth is surrounded by that to 
protect us against meteoroids and radiation and heat and so 
forth.
    So how do we learn from it by using Styrofoam or bubble 
wrap to carry fragile materials, or just carrying a hot 
beverage using Styrofoam. So how did I learn from it? We used 
the generous support, like Congresswoman Matsui mentioned, to 
have almost $2 million funding to start building a new 
material, something that is more or less like a metallic bubble 
wrap.
    When you put them side by side, you can see the 
similarities. It is much lighter than steel. This scale shows 
two pieces of steel. One is regular steel and the other one is 
our composite metal foam steel. And it is a third of weight. It 
is the same size, but the density is a third. And the material 
has shown a huge energy absorption capability and performing 
like sponge. It can be used for high-speed impact protection. 
It can be used for ballistic or blast and frag protection. It 
can be used for radiation shielding or heat or sound and 
vibration shielding.
    So the possibilities are endless. So the $2 million is just 
a drop in an ocean. If we want to get this material in the 
hands of our soldiers to benefit from its protection, we really 
need more support.
    Here, you probably have seen the picture in a lot of media 
news coverage, Fox News, Huffington Post, and so forth. In this 
video, we see the composite metal foam being squeezed down. Of 
course, the force is huge. What you see is like a kitchen 
sponge; it is squeezing down, and that is what provides us the 
energy absorption. This video also shows a composite structure 
partly made by our composite metal foam. The bullet is hitting 
the material. It is totally disintegrating.
    The panel that you see here in this picture is just 1 foot 
by 1 foot. It shows a multishock capability that other armors 
are not providing. This picture is beautiful. If you see, we 
have the hard core of a bullet entrapped inside those squeezed 
bubbles. So it basically works as a bubble wrap, but a heavy-
duty one.
    So the back of the armor also is showing just a small 
indentation. And if you remember, the National Institute of 
Justice have up to 44-millimeter indentations, which basically, 
you stop the bullet but you hurt the soldier by those huge 
indentations in the back of the armor. This one does have a 
very small indentation, as you can see, less than an eighth of 
an inch.
    Here, we put this in front of a large HEI 23-millimeter 
blast and frag, the panel, less-than-an-inch panel. I put a 
piece of aluminum with the same weight and our material. The 
red one that you can see totally stressed is aluminum; and the 
one that is green and happy is our material. So you can put it 
under the vehicle, in a vehicle, armor. You can put it anywhere 
to protect our soldiers, and I bet they are going to be much 
happier.
    The cross-section also is shown, and the aluminum has been 
damaged a lot and composite metal bomb stopped all the 
fragments, stopped the blast wave energy. These particles have 
been flying up to 5,000 foot per second and they hit the panel, 
and the panel stopped them.
    The rest of it is confidential with Army.
    We also learned from our atmosphere, and we put it in front 
of 800 degrees Celsius flame. And, as you can see, our material 
takes 8 minutes to reach the saturation of 800 degrees Celsius 
with just less than an inch thickness. Steel takes 4 minutes, 
and aluminum takes 20 seconds. So that shows how the material 
can insulate against heat and protect against high 
temperatures.
    So you can imagine all of the cases, a lot of cargos that 
carry explosives, things that can be helpful in all directions 
to protect against heat. And also, we also learned from 
atmosphere and put it against x-ray. We are not reaching lead 
yet, but we have shown almost 275 percent improvement in 
blocking x-ray compared to aluminum.
    So in our recent studies funded by Nuclear Energy 
University Program, we have collected those data and we learned 
that if we add a little bit of other elements into our 
material, we can further improve it, but we need more support. 
This has been done in the last decade or so, and I have done 
all of these single-handed. We need much more funding. If this 
technology needs to go out and protect our soldiers, our 
people, we definitely need more support.
    I did not notice the time. I am so sorry I took longer.
    [The prepared statement of Ms. Rabiei follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Mr. Latta. Well, thank you very much for your testimony. I 
really appreciate that.
    And at this time, we will recognize Dr. GangaRao for 5 
minutes. Thanks again for being here.

                 STATEMENT OF DR. HOTA GANGARAO

    Mr. GangaRao. Thank you very much, Mr. Chairman. My theme 
today is going to be on the renovation of American 
infrastructure with advanced composite materials.
    Herein, I do not want to propose rip and replace of 
existing conventional materials. We want to reinforce them, 
make them safe. According to last week's American Society of 
Civil Engineers' report, our infrastructure received a grade of 
D-plus. This low grade is attributed to $4.5 trillion over 10-
year funding gap between revenue and infrastructure needs. On 
top of it, motorists are spending $500 a year per vehicle to 
maintain, due to the poor quality of our bridges and highways.
    Where could we get the funding from? Public-private 
partnership. We have been doing that, to a small extent, and as 
you have seen, I-267 outside D.C. More debt to our $20 trillion 
debt package. Not sure that the Congress wants this up. 
Increasing Federal and State gas taxes. That I am afraid 
doesn't have the appetite of the Congress.
    I have a fourth idea: Do not rip and replace, but renovate 
with advanced composite materials. Here are some of the 
composite materials that we at the Constructed Facilities 
Center of West Virginia University have been developing since 
1987. Thanks to Congressman McKinley, we built a bridge in his 
backyard back in 1996. It is standing, functioning extremely 
well, with a reinforcing bar in lieu of the steel bar. This is 
four times lighter, two times stronger, noncorrosive, 
nonconductive. I have several materials to that effect.
    These developments have taken place in cooperation with 
government agencies, a wide range of industries, and academia. 
To illustrate West Virginia University activities with 
government and industry help, we have built over 100 new 
bridges, including laminated composite timber, polymer, and 
glass or carbon composites. And also, we did some of the hybrid 
development, implying the wrapping of concrete and timber with 
composite. And these approaches do not call for any rip of the 
existing commodity product, but reinforce these products with 
glass or carbon as a shell with conventional materials as a 
substrate or a core.
    Today, I want to focus on discussions on saving huge sums 
of money for taxpayers without compromising safety or user 
inconvenience. Allow me to use three great examples to 
illustrate my savings plan. Say, for example, we will focus on 
transportation infrastructure. One is the bridge deck systems. 
These are the first lines of defense when it comes to 
structural material deterioration of bridge superstructures. 
This is a $120 to $150 billion problem. We can remove this 
falling concrete and do a few other things, and put a glass or 
a carbon fabric carpet on top of the existing concrete deck and 
fuse it with proper resin. Where is the savings? This can be 
done with about $50 to $60 a square foot of a deck while, in 
fact, a rip and a replace will cost you about $150 to $180 a 
square foot. You can imagine the savings.
    The second example, we discard 20 million railroad ties 
that are creosote-treated, and this has a humongous 
environmental problem. What we propose is put a Band-Aid, known 
as a glass composite wrap, or a carbon composite wrap, to 
enhance the service life to about 50 to 60 years, if not 80 
years. Imagine the amount of money one can save from--we have 
done the field testing and also the Pueblo, Colorado, testing, 
and we have shown that the life expectancy can be tremendously 
improved.
    The third item I would like to talk about is the shale gas 
movement. West Virginia is the epicenter of gas deposits. With 
these new composite materials, with nanocoatings made of 
graphene or whatever that are noncorrosive and nonconductive, 
we can design pipelines with internal pressures of 3,000 to 
5,000 psi, and be able to push more gas at a most economical 
price.
    I have several other examples. I need to skip a few of them 
for the sake of time factor. Then the question is, one wonders 
if these all so good, why the free market is not accepting 
them? There are several impediments. I will not go into them. 
In conclusion, those impediments are clearly stated in my 
write-up.
    However, in conclusion, this is what I would like to say: 
We are most grateful that the U.S. Government support has been 
integral in the initial development and implementation of 
composites in civil infrastructure. With continued support, 
manufacturers will continue to expand, create high-paying jobs, 
and improve U.S. infrastructure so that advanced composite 
materials will be an integral part of our infrastructure 
landscape.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. GangaRao follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Again, thank you very much for your testimony.
    And, Mr. Weyant, we will give you 5 minutes now for your 
opening statement. Thank you for being with us.

                  STATEMENT OF SHANE E. WEYANT

    Mr. Weyant. Good afternoon, Chairman Latta, Congresswoman 
Matsui, and the members of the subcommittee. Thank you, and I 
appreciate the opportunity to testify before you today.
    I am testifying on behalf of Creative Pultrusions and my 
fellow members of the American Composite Manufacturers 
Association.
    Creative Pultrusions is one of over 3,000 manufacturers of 
composites who are represented by the ACMA. Since World War II, 
this industry has made products using combinations of glass or 
carbon fiber reinforcements, and tough engineered polymers. The 
resulting material is stronger than the constituent materials 
individually.
    Composites provide characteristics specifically tailored 
for maximum performance in a host of different applications. 
Composites are stronger than other materials, such as steel, 
concrete, and wood. They are also lighter, more energy-
efficient, and easier to transport, assemble, and install. They 
offer design flexibility and durability and, most importantly, 
are resistant to corrosion and structural degradation.
    We have been in business for over 44 years and have seen 
many changes to the industry. Some applications for composites 
have been disrupters, but are now common practice, like 
fiberglass boats and windmill blades. The industry has great 
potential to upend traditional infrastructure and construction 
markets and address an immediate national challenge.
    Nearly every key development in our industry since its 
inception began in the United States. However, the committee 
should be aware that other countries have accelerated research 
and commercialization in an effort to gain market dominance. 
Policymakers should ensure that disruptive domestic 
technologies likes ours have a framework and an environment to 
encourage their continued advancement and adoption, including 
supporting institutions, such as the advanced manufacturing 
institutes.
    Our energy and communications infrastructure is more 
critical than ever, yet, it is reliant upon 19th century 
technology, wood poles. Tens of thousands were wiped out by 
Superstorm Sandy, and hundreds of thousands of wood poles and 
crossarms are nearing or past their functional service life. We 
have a choice to continue with this outmoded technology, or use 
21st century material. My company is one of many manufacturers 
of composite utility poles and crossarms that are easier to 
install, and more durable against extreme weather, fire, and 
require less maintenance and last significantly longer.
    Composite poles are the best choice in environmentally 
sensitive areas, because they will not leach toxic chemicals 
and are resistant to rot and pests. The structural capabilities 
of composites give these materials the ability to disrupt the 
150-plus-year span for building bridges in this country as 
well, a disruption welcomed by Canadians and other nations.
    Composites bring the advantage of extended service life and 
superior performance through the inherent resistance to rust 
and degradation. When traditional materials such as steel-
reinforced concrete rust, crumble, and spall, composites remain 
unchanged.
    An additional benefit of composites is the speed of 
production and installation. Traditionally, bridges can take 
months to build on site. We have installed bridges, with the 
help of Dr. GangaRao, like the Market Street Bridge in 
Wheeling, West Virginia, with less than 14 hours of labor to 
install the bridge deck.
    The recent events in Flint and Oroville show our water 
infrastructure is also in need of modernization. Composite 
technologies have the capacity to revolutionize the water 
systems around this country. Composites can provide pipe and 
structures that are easier to install, stronger, and more 
durable than the other materials, and are inert, and don't 
leach chemicals into drinking water.
    Composites also have a game-changing potential in marine 
infrastructure. Our SuperLoc sheet piling system, for example, 
rehabilitates deteriorated waterfront structures subject to 
harsh marine environments. A similar product, our fender pile 
system, was used to rehabilitate the service dock at the Statue 
of Liberty in wake of Superstorm Sandy, replacing outdated 
wooden structures.
    Standards are a crucial issue. The Federal Government has 
been instrumental in the development of standards for other 
industries. Now is the time for Federal agencies to work with 
us and our academic partners, like my fellow witness, Dr. 
GangaRao, to develop these standards that would allow us to 
meet the challenge of our future with innovative solutions.
    Thank you for the opportunity to testify today on behalf of 
the domestic composite industry, and I am happy to answer any 
questions.
    [The prepared statement of Mr. Weyant follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    Mr. Latta. Well, thank you very much.
    And we will now move into our question-answer portion of 
the hearing, and I will recognize myself for 5 minutes for 
opening questions.
    First, let me just thank you all for being here again, 
because it is fascinating, especially where you are all taking 
us is amazing. But I just wrote down a few other questions, if 
I could just get maybe brief answers to.
    Dr. Tour, you had mentioned that you had started three 
companies recently, and they all started abroad. What countries 
did you go to, because of the tax question?
    Mr. Tour. They were all started in Israel.
    Mr. Latta. In Israel. Thank you.
    Mr. Murphy, if I could ask you a question, you were talking 
about--because we always have discussions around here about FDA 
and where we are going and who is faster, European, U.S. And 
you said that the European and Japanese have been implementing, 
I believe theirs, it sounds like it is faster than we are doing 
it here. Would that be correct? Did I understand that?
    Mr. Murphy. They have given clarity to the pathway. It is 
not specifically about how fast in Japan. It has the promise to 
be faster.
    Mr. Latta. Could you maybe define more clarity to that 
pathway?
    Mr. Murphy. Yes, absolutely. In Europe, they have a 
dedicated pathway for advanced medicinal therapies that they 
established a while ago, and it has just been getting use and 
has more clarity about how it operates.
    21st Century Cures Act in the U.S. actually requires the 
establishment of an accelerated pathway for tissue and cell-
based therapies which we think will be attractive, but it 
doesn't change the safety mandate. It simply requires speedier 
review, or it is yet to be seen.
    And so what we are asking for today, one thing we would 
like to see is proper and speedy implementation of what that 
pathway will be. We need clarity in our industry to keep 
companies here in the U.S. and keep the clinical trials here in 
the U.S., because even U.S.-based companies will often go 
overseas to run their clinical trials first, because they see 
more clarity in the process.
    Mr. Latta. Thank you.
    Dr. Rabiei, I am just kind of curious. Maybe I missed it. 
How thick is that material? And what is the weight factor, 
especially in that protective armor that you are working on?
    Ms. Rabiei. We have made armor that all of them were less 
than an inch. And we have been putting them in front of very 
large threats, like armor-piercing kind of threats. They call 
it 7.62, .50 cal. And it performed always surprising. One of my 
colleagues that I have been working with from Advanced Aviation 
Research Center, he always tells me when I take samples there, 
he says, Afsaneh, your samples always surprise me, and I am not 
surprised anymore, because you have surprised me enough.
    So it always performed well. Of course, we don't claim that 
it is perfect in all different directions. Definitely, we do 
need support to further develop the material for specific 
applications. Like, for example, when we put it in front of the 
blast wave, it is still less than an inch, and it still 
performed. But how would that work against IED, we still do not 
know. We put it in front of HEI. So every one of those need 
more in-depth analysis so that we can take it faster to our 
soldiers' hands.
    Mr. Latta. Thank you.
    Dr. GangaRao, we had hearings and with legislation in the 
last Congress, especially on pipeline safety. And how would 
this material work? I know you were explaining about the 
pressure and all, but would that prolong the life of the pipe 
by having this technology in that pipe?
    Mr. GangaRao. My colleagues from Creative Pultrusions have 
been manufacturing these kinds of pipes for a few years. And 
there are several advantages of this type of a pipe, number 
one. It is of higher strength and lower weight.
    Number two, it is noncorrosive, and it is nonconductive. 
And it can take much higher pressures on a sustained basis and 
be able to enhance the safety, because there will be no burst-
type failures for one reason or the other.
    Mr. Latta. Well, thank you.
    And, Mr. Weyant, if I could ask you, you mentioned 
something that caught my ear, that you had a bridge deck that 
went in in 14 hours?
    Mr. Weyant. Yes.
    Mr. Latta. How big was that deck, just out of curiosity?
    Mr. Weyant. The actual bridge in Wheeling was 200 feet 
long, and approximately 68 feet wide, with a sidewalk.
    Mr. Latta. In 14 hours?
    Mr. Weyant. That deck was installed in 14 hours. So knowing 
concrete would be probably a 30- to 40-day just on the deck 
itself to disrupt the traffic and delays.
    Mr. Latta. Well, I know that they were doing some 
replacement on I-75 not too far from me, and they slid the 
bridge in, but it was an all-day affair. And getting everything 
lined up at 14 hours is quite an accomplishment.
    And I have overrun my time, but I really appreciate your 
testimony today. And at this time, I am going to recognize the 
gentlelady from California for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman. And I agree, 
this has been absolutely fascinating testimony that we have 
heard here today. I keep thinking about all the things that we 
can be doing with some of the products that you are talking 
about.
    But let me just first, I want to ask all of you just 
quickly, did you receive Federal funding during the process of 
developing your material and, if so, can you describe for me 
the role that Federal funding played? And this is just quickly.
    Mr. Tour. Yes. I received a lot of Federal funding for our 
work on graphene from the Air Force Office of Scientific 
Research and the Office of Naval Research, and it was critical 
for the development. Without that, we never could have done 
this.
    Ms. Matsui. OK. Thank you.
    Mr. Murphy. The founding technology which came out of the 
University of Missouri was funded heavily by the National 
Science Foundation. After the formation of the company, we have 
gotten multiple NIH SBIR grants. And we also benefited from an 
ARRA grant that was established for biotech companies. We also 
just got a great score on our latest NIH SBIR grant. So if you 
guys can pull any strings, that would be great.
    Ms. Matsui. I think I heard, but is there more that you 
would like to tell us about your funding?
    Ms. Rabiei. Sure. We also have received funding, as I 
mentioned in my presentation, again, started from National 
Science Foundation, where discovery began. I absolutely support 
that statement.
    All of the funding that I have received so far were through 
my university. We have multiple patents and we have started a 
company to commercialize the technology, and the company has 
not received any funding.
    Ms. Matsui. OK. Dr. GangaRao?
    Mr. GangaRao. The Constructed Facilities Center at West 
Virginia University has been receiving funding from the 
National Science Foundation since the mid 1980s. We have also 
been getting good bit of funding from the Department of 
Defense, Army Corps of Engineers, Department of Transportation. 
And we are very fortunate to have been consistently receiving 
their support.
    We want to emphasize that these composite materials might 
look a little bit more expensive to begin with in terms of the 
initial cost. However, there are certain products that we have 
developed with industry folks like Creative Pultrusions, able 
to install them at about half the price of conventional 
material.
    Ms. Matsui. All right. Thank you.
    Mr. Weyant. Yes, Congresswoman Matsui. We have received 
Federal funding on the bridges. In early 2000, there was some 
funding put in place to help offset the cost difference, the 
original cost difference of the materials. That also was 
allowed to let us develop other technologies that we could use 
in other infrastructure areas to develop a lot of our marine 
structures. So we appreciate that support.
    Ms. Matsui. Thank you.
    Dr. Rabiei, you know, in the past few years, this committee 
has done a lot of work on the issue of head injuries and brain 
trauma in sports. We often use an analogy to a yolk in an 
eggshell. Helmets may be able to protect the skull from 
fractures, but not protect the brain from injuries.
    I am curious. Do you see any potential application for your 
invention in that area? And how would it be different from the 
traditional helmets?
    Ms. Rabiei. Yes. Actually, I was here in D.C. last 
Wednesday, with a group of people who were advocating for 
Society for Brain Mapping and Therapeutics. So there were, 
like, six brain surgeons, and I was the only rocket scientist 
in there.
    So one of the potential applications of the material can be 
for helmets, and for any kind of protective layers. So what I 
always say is that when you want to transfer an egg, you put it 
in Styrofoam. When you are transferring glass, you put it in 
bubble wrap.
    When you transfer humans to outer space, or from here to 
another place in an airplane, in a train, or send them to 
hockey or in a war field, you don't protect them. We care more 
for the glass than for the human. We just put it in a solid 
material, and what solid material does is just to transfer the 
load from one side to the other, and it is not my problem. But 
when you put it in a porous metal, the porous metal squeeze and 
the human behind it is protected. So whether it is helmet, 
whether it is armor, whether it is in front of the car, it 
works.
    Ms. Matsui. Well, that is wonderful.
    We also have jurisdiction over automobile safety. How about 
metal foams, can they be used to reduce the damage of vehicle 
crashes?
    Ms. Rabiei. For, I am sorry?
    Ms. Matsui. Metal foams. Is that possible to reduce the 
damage?
    Ms. Rabiei. Yes. Yes, absolutely. I had some funding from 
the DOT, and a program called IDEA that was for crashworthiness 
and impact protection. So in our preliminary studies, it shows 
that if you put two pieces of our material in front of the car 
and have an accident, like 35 miles per hour, it will feel like 
5 miles per hour for the passenger sitting in the car, because 
the energy is absorbed and damped, but----
    Ms. Matsui. Thank you very much. Could I have just one more 
question?
    Mr. Latta. Yes.
    Ms. Matsui. I was curious. I live in Sacramento. We have 
two big rivers and we are always talking about water 
infrastructure. So I was curious, because some of what you are 
talking about might be very helpful for us, if we are thinking 
about materials that would be stronger and be able to withstand 
more pressures and things like that.
    Are there available--when you build bridges, are you also 
thinking about dams and things like that also?
    Mr. GangaRao. Yes, we have a great bit of funding from the 
Army Corps of Engineers. And we have recently, about 4 years, 3 
years ago, we rehabilitated a dam underwater, without draining 
it out, using the composite materials.
    Ms. Matsui. Oh, that sounds pretty good. OK. Well, thank 
you.
    I know I have run out of time. Thank you.
    Mr. Latta. Well, thank you very much.
    The chair now recognizes the gentleman from Mississippi, 
the vice chairman of the subcommittee, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And thanks to each of you for being here. It is fascinating 
every time we learn more and more about this. So thank you for 
your work and your concern.
    And, Dr. Tour, your testimony earlier and your remarks and 
your written testimony, if we were to increase the funding for 
research at universities and the corporate tax rate were 
reduced, what impact do you see that having--the concern that 
you have about the brain drain of research scientists?
    Mr. Tour. Right. Well, as far as the corporate tax rate, it 
was on the advice of our accountants to start our companies 
overseas, and so that would cease. We very much would rather 
start it here. It is much easier here because of the knowledge 
that you don't have to transfer it as far. So that would 
immediately keep companies here that are going overseas, and 
then two of them are already on the public markets overseas.
    As far as the increase in research funding, we have seen 
very little increase in research funding over the last 8 years. 
It has been devastating in the universities and so much so that 
our--I collaborate with the Chinese, and I put their names on 
our papers. Why? Because I need access to their equipment. They 
have better equipment than we have in the United States because 
we haven't been able to maintain our equipment budgets.
    I come from a university that is only 4,000 undergraduates, 
4,000 graduates, and we have $5.5 billion endowment. So we are 
well endowed. We are hurting on equipment. And so I collaborate 
with people overseas just to get access to their equipment. So 
this is going to be a long-term problem for our country that I 
really care about if we keep on seeing this.
    Our best students are now going home. They would gladly 
take jobs in the U.S. as professors and do this, but they get 
huge startup packages in China. They have the 1,000 scholars 
program, which is more than 1,000 people, but they will start 
it with multimillion dollar packages as young people. So we are 
losing them.
    Mr. Harper. All right. Well, thanks for your input, and I 
think we get the message and appreciate that.
    Mr. Weyant, if I may ask, you mentioned a number of 
industries leveraging fiber-reinforced polymer composites in 
the U.S. from aerospace, automotive, defense, health care. How 
has your company had to adjust to new materials entering those 
industries over the years?
    Mr. Weyant. Well, the big adjustment is trying to develop 
standardizations that don't exist for advanced composites. A 
lot of traditional materials, there are handbooks that exist. 
Dr. GangaRao can pull out a steel handbook.
    So the big challenge I would challenge and ask for is to 
help develop those standards. A lot of these companies are very 
small with restricted budgets, but if the government and 
universities and industry could develop standards to penetrate 
so any engineer out of school could pull out a standard and 
develop around these products, that would be a great return.
    Mr. Harper. Great. Great. Thank you.
    Dr. GangaRao, how large is the market for composite 
infrastructure applications? What do you envision?
    Mr. GangaRao. As I indicated, we are dealing with a $4.5 
trillion market in the infrastructure arena for the next 10 
years. If I had to make a guess at it, we can easily capture a 
trillion-dollar type market in the next 10 years provided we do 
certain things right, as Shane pointed out, and a few others, 
and I also put it in my testimony.
    Mr. Harper. OK. Great. Thank you.
    And, also, Dr. GangaRao, in your testimony, you discussed, 
you know, the societal impact of developing advanced composites 
for infrastructure applications. Can you please explain this in 
a little more detail, that impact? And is there also a monetary 
benefit to using advanced composites, and if so, in what ways?
    Mr. GangaRao. Let me start with the monitoring aspect of 
it. For example, the longevity of a given system can be 
enhanced using the composite, not necessarily displacing 
existing conventional materials but hybridizing the 
conventional materials with the composite. I gave you one such 
example: Take the case of a bridge deck. I believe we can save 
the next 10 years several billion dollars, perhaps up to $50 
billion just on one aspect of that.
    Then let me move on to something like the railroad ties 
where the operational costs are tremendously high today. 
Herein, if I can increase the life expectancy from 10 years, 
which is what it is today in the southeast United States, to 40 
to 50 years, then I can have a huge savings there. For example, 
New York City today pays $2,100 a tie for replacement, even 
though the tie cost is only $100 to $150. $2,100.
    Now, if I can break this cycle of once in 20 years to once 
in 50 years, imagine the amount of moneys we are going to----
    Mr. Harper. Well, thank you. And thanks to each of you.
    And my time has expired. I yield back.
    Mr. GangaRao. Yes, sir.
    Mr. Latta. Thank you.
    The gentleman's time has expired and has yield backed.
    The chair now recognizes the gentleman from Massachusetts 
for 5 minutes.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Thank you to our witnesses and for the committee for 
calling this hearing.
    To our witnesses, thank you for the work that you do, 
extraordinarily exciting stuff. The pathway from the basic 
research to the commercialization to bringing these products to 
market to helping people is, I think, a critical one for 
policymakers to understand. How academia plays into that is 
critical as well. And I want to thank you for making the time 
to testify today and make sure that your thoughts help guide 
the committee forward as we try to navigate the policy 
implications before us.
    Dr. Rabiei, just to start with you if I may, your 
inventions have had an exciting range of possibilities. And I 
wanted to get a sense as we--I mentioned a little bit about 
that commercialization process. I wanted to get a sense from 
you as to what comes next so that more people can have access 
to the potential benefits of your discoveries.
    So how are you planning to commercialize your composite 
metal foam? And if you are, could you tell us more about what 
that process is like and how you are going about it?
    Ms. Rabiei. Well, in a nutshell, we have established a 
startup; it is an LLC company outside of the university. I do 
have the opportunity to continue research at the university. 
So, if I get funding from the university, we can continue 
promoting the technology and figuring out more properties that 
can be beneficial.
    And from the company side, we are hoping to get through the 
fundraising process and establish a small production line where 
we can make prototype samples for different companies. Right 
now, everywhere I have companies from--large companies are 
making tanks and Army vehicles to body armors to any kind of 
industry you can imagine. They have seen how the material is 
performing, and they want to get their hands on the material.
    But I do not have production line. I do have a small 
laboratory-scale production, and that is where we are right 
now. If we get funding to have our production line established, 
even a small production line where we can make little larger 
samples and smaller-scale samples, that would take us to the 
next step faster.
    Mr. Kennedy. And if you had your choice, where would you 
plan to manufacture it?
    Ms. Rabiei. Right now, I am in North Carolina. So I do not 
have any plan to take the production outside the country. I do 
believe that----
    Mr. Kennedy. How about Massachusetts?
    Ms. Rabiei. Oh, my daughter would love that.
    Mr. Kennedy. There we go.
    Ms. Rabiei. She was born in Boston, actually.
    Mr. Kennedy. That is what we are looking for.
    Ms. Rabiei. And she always wants to come back to Harvard.
    Mr. Kennedy. We have got a couple institutions of higher 
learning in Massachusetts, well, and a couple in Cambridge, 
too. MIT, that other school in Cambridge, happens to be one of 
the recipients of one of the national institutes of 
manufacturing awards from the U.S. Government under the Obama 
administration but stood up also with a bipartisan piece of 
legislation passed 3 years ago now creating the national 
network of manufacturing institutes all over the country. And 
the one at MIT is based on advanced fabrics.
    So, at the kickoff, about a year or so ago at the 
announcement, Secretary Ash Carter was in Cambridge and talked 
about how they were trying to develop fabrics--a T-shirt that 
could tell you if you were sick, a parachute that could repair 
itself in the middle of a jump.
    The ideas and the applications, obviously, of such products 
are extraordinary and I think exactly the type of innovation 
that government and working with academia and industry and 
business community and entrepreneurs teaming up can lower those 
barriers of entry, increase the ability of innovators to 
actually take risk without having such a huge downside if those 
risks fall short but also making sure we keep that pipeline of 
funding that goes through that basic research, keeping that 
pump prime so that we can continue to make the groundbreaking 
discoveries that years later will lead to that 
commercialization and those end products.
    Well, is that understanding of that process correct? And 
what advice would you give us as we try to refine it going 
forward?
    Ms. Rabiei. Well, you said it right to point out everything 
ends up at the funding. If the funding is available, everybody 
will move wherever the funding goes, right. So that actually is 
a smart way to do it in a university when you know where the 
interest is and you can adjust your research to that, and you 
are going to be a successful faculty.
    So, as far as my research goes, we definitely would love to 
look for opportunities. And wherever opportunities take us, 
then we will be happy to----
    Mr. Kennedy. I am over my time. If the chairman would 
indulge me for 10 more seconds. That national network has 
actually been successful enough that our Republican Governor is 
mimicking it at a State-wide level creating State-wide 
manufacturing partnerships for the next generation of 
innovation if any of you should be choosing to. It has been a 
rough weather week, but we have got really good sports teams if 
any of you are interested in locating north.
    Ms. Rabiei. Thank you.
    Mr. Latta. Ohio didn't have too bad of one, or two.
    Thank you very much. The gentleman's time has expired.
    The chair will now recognize the gentleman from West 
Virginia for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Dr. GangaRao, when I read your testimony, if I could be 
paraphrasing a little bit, you are saying that one of the 
things, the obstacles we have, the barriers that have been put 
up about our composite construction, is being able to evaluate 
the durability and the cost savings over time. How would you 
suggest we do that? Which agency should be funded to do that, 
or how would we go to rectify that problem?
    Mr. GangaRao. We have been doing some work already in the 
area of durability, and there is a lot that needs to be done. 
And some of the agencies that have been funding are the 
National Science Foundation, the Army Corps of Engineers, the 
Department of Transportation. So these are some of the 
agencies.
    Mr. Guthrie. Are you suggesting that we put some language 
in to make sure, as projects go ahead, that they check for that 
long term?
    Mr. GangaRao. That is correct.
    Mr. Guthrie. OK. Thank you.
    Let me do--now, Dr. Tour, this subject of graphene is 
fascinating to me. I have been studying it now for about 3 
1A\1/2\ years. But I have found here in Washington that almost 
nobody knows anything about it, is aware of the product.
    So I am curious: How would you suggest we make people aware 
to understand the importance of the development of graphene, 
and what are some of the commercial applications that we could 
possibly use in discussions for funding? And, thirdly, what 
would be the best agency that we could plus-up their account 
possibly so that we would have money to be able to do more work 
in graphene?
    Mr. Tour. So, as far as getting the word out, I mean, there 
has been a huge amount of press on graphene. I think the people 
in Washington have been consumed with other things of late. So 
that is a distraction area that I am not sure I can speak to.
    But as far as the areas, this extends--and even from my own 
work, it goes from the medical area. We have two drugs: one on 
traumatic brain injury and stroke--traumatic brain injury being 
the number one disabler of young adults; stroke being the 
number one disabler of older adults--that are based on graphene 
nanoparticles that have transitioned to industries.
    We have aircraft coatings based on graphene. We have used 
oil--graphene in the oil and gas industry, and we have used 
graphene, as I said, for healing of spinal cord. So it is very 
broad. I don't think it would be wise to give it to just, say, 
the DOD agencies.
    I think that taking the money and spreading it across as 
you did, quite wisely, as the Congress did, with the National 
Nanotechnology Initiative, they pushed nanotechnology across 
all the different agencies and said: Each one of you is 
responsible for pushing nanotechnology through your different 
agencies. And so we got the NSF, the NIH, and the Air Force, 
and the Navy, and the Army all pushing, and so it came out of 
all of these different sectors because it can influence all of 
those.
    Mr. Guthrie. Where do you see applications that we could 
more demonstratively convince people that this is a product 
that we should be advancing?
    Mr. Tour. So we have----
    Mr. Guthrie. Other than, I heard you say about--some of 
that, but give me some other things that perhaps we can load 
our gun up a little bit to be able to promote.
    Mr. Tour. Right. So, on a day like today, for de-icing 
leading edges of aircraft or de-icing entire aircrafts by 
putting a coating of graphene, you use a Joule-heated resistive 
coating. And what it does is it makes it so that you can easily 
de-ice aircraft without having to use chemicals--this is just a 
thermal process--or de-icing power lines. No more ice on power 
lines. There is no more energy. You can just coat these 
properly, and the magnetic field from the power line heats this 
just even a few degrees higher than ambient, and you will get 
no more ice on the power lines.
    So it is very good for de-icing applications, which is 
something you can talk about with somebody today, and then it 
can extend into the medical applications. When we are talking 
about the number one disabler of both older and younger adults, 
what these particles can do is really quite amazing.
    So, again, there are lots of applications. I can give you 
tens of pages of press releases on different application areas, 
even from our own university.
    Mr. Guthrie. OK. I would like to see that.
    Mr. Tour. OK.
    Mr. Guthrie. I know that it has the potential of being a 
replacement for silicon wafers in our computers, but there is a 
band gap problem with that.
    Mr. Tour. Right, there is a band gap problem. So probably 
what we won't do is replace. Where silicon is good, we will use 
it in other things. So, for example, for heat release or for 
touch-screen displays, the problem with graphene is, as you 
said, the band gap is too small. It is too metallic in nature. 
But its mobility is so high. Its mobility is 100 to 300 times 
faster than silicon; that means the rate at which you could do 
computation.
    So we have to think about using it in different ways. And 
there is actually a team actually at MIT that is thinking about 
using graphene, not as silicon is used but differently in 
computing. So, if you would change the computing hardware then 
you could revert to graphene. What people had tried to do is 
force graphene into the silicon box, and that has not worked.
    Mr. Guthrie. Very good. Thank you.
    I yield back.
    Mr. Latta. Thank you very much.
    The gentleman yields back.
    The chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    Mr. Murphy, you mentioned over 100,000 Americans are on 
organ transplant waiting lists--or were in 2015, I think. Only 
30,000 of those patients received transplants. Is there a 
potential for your technology and 3D printed tissue to address 
the needs of these patients, and if so, how? And when do you 
think treatments like these could be ready for use in patients?
    Mr. Murphy. Thank you for the question, Congressman.
    Yes, so we are developing a 3D bioprinted liver tissue for 
transplant into humans. It is now at the stage of animal 
trials. We have been testing it in rodents quite successfully. 
It has already established that we can get it to engraft well, 
persist for months, that it has metabolic function, that you 
can measure human proteins that are produced by that liver 
circulating in the animal.
    And we are moving this along a normal development pathway 
anticipating starting clinical trials as soon as 3 to 4 years 
from now. We are targeting 2020 to have the clinical trials 
started for this. We think it can be tremendously impactful for 
patients because there are so many patients, as you mentioned, 
on the waiting list, in this case for liver. Many people can't 
even get on the waiting list. If you are elderly or you have 
other diseases, you are not even going to be put on that 
waiting list, and there are no solutions. And basically these 
folks are down to 10 or 15 percent organ function.
    So we are sort of on a staircase, I would say, of how we 
can help people. With the technology we have available today, 
we hope to give these folks up to 10 or 20 percent function 
with a patch rather than a full organ that can bridge them to a 
full transplant that they can get 1 or 2 years later. We can 
give them 1 or 2 years additional without one. And then longer 
term, if the technology is applied broadly and we work with 
others and bring in more tools and technologies to this, we 
believe we can make fuller organs over time and do full 
transplants.
    Mr. Costello. You referred to a paper from December in 
which the authors referred to the value of 3D bioprinted human 
tissue as reducing the need for animals in chemicals and 
cosmetic testing. Are you aware of existing or ongoing studies 
that have shown more accurate outcomes regarding drug and 
product testing using bioprinted tissues versus animal trial 
methods?
    Mr. Murphy. Yes, thank you.
    The best way to think about what we do is that we have 
been, as a society, for 50 years or more, dependent on a single 
paradigm, which is testing cells in a dish and using animals as 
surrogates for humans. But there is a gap between animals and 
humans. And essentially, that means we don't know a lot about 
drugs when we put them into humans.
    Those are truly experiments done in humans, those clinical 
trials, and that is why we go so carefully and so slowly, and 
that is why you end up with major surprises for drugs, things 
that are unforeseen.
    And liver is a classic example because liver cells on a 
dish don't perform like the liver fully ever, and they stop 
performing at all like a liver within 3 to 5 days. So the 
opportunity we have, the reason bioprinted tissues work is 
because we put the liver cells--we use three different cell 
types. We put them with specific architecture into the tissue. 
So it performs more like a native function.
    And to your exact question, we have been able to show over 
time that first with trovafloxacin, which was a known drug 
failure, that drug, which was tested for many years before it 
was put into humans--toxicity was not seen in rats and in liver 
cells in the dish--we could pick it up in 7 days in our system 
very clearly because there is basic biological function in our 
tissue that just doesn't exist in those other models. Humans 
and animals are different.
    And so we have got now a growing set of data that was 
referred to in the paper you mentioned. And people are relying 
on the fact that, for example, one of the authors of that paper 
was also from Merck. We have worked with top 10 Pharma 
companies like Merck, taken drugs from them in a blinded 
fashion. They have given us a set of 12 drugs that can 
sometimes include their own clinical trial failure drugs. And 
we hit those drugs at a very high rate, meaning we found about 
70 percent of the drugs that have gone into clinical trials and 
failed, we can detect the toxicity of those in our system under 
a month.
    So it is a very powerful advance in the predictive tools, 
and we expect this to extend into diseases, into study of liver 
fibrosis and other diseases over time, and many other tissues 
as well.
    Mr. Costello. Dr. GangaRao--did I pronounce that 
correctly?--my question, and it could apply to any of the 
applications, but in particular, as it relates to 
infrastructure, and you hear a lot of talk about an 
infrastructure bill or public spending in the infrastructure 
space, and the issue of useful life, return on investment, 
cost-benefit analysis. And some of these applications obviously 
or may cost more than the traditional means of doing an 
infrastructure project. The commercial viability, I think, then 
becomes a question of when is it worth it based on how much 
more additional wear and tear and years can we get out of it.
    Big picture, and it doesn't just have to relate to 
infrastructure, but I use that to illustrate the point to ask 
the question, are there shortcomings, or are there not 
shortcomings in the analysis on how much it will cost, what the 
return on investment is, so that as policymakers we are in a 
position to say, ``Well, we can do that project for $10, or we 
can do that project for $15; but if we do it for $15, it is 
going to be twice as value-added to the public benefit because 
of the materials that we are using and the way that we are 
designing and building a project''?
    And I don't ask that question just of you, I welcome 
everyone to answer it. But I think that there is something to 
that. I just don't know if, in addition to the technology and 
the advancements all of you are making, whether we as 
policymakers and the public have an appreciation for that 
analysis so that when we make decisions, we are able to justify 
spending more.
    Mr. GangaRao. As scientists, we have been struggling to 
answer that question with a degree of accuracy. One of the best 
ways to do it is we have been building these infrastructures 
for the last 25 years, and we need to field monitor them today 
and see how well they are doing. We have certain mechanisms of 
establishing the remaining life; thus, we should be in a 
position to establish a decent number in terms of the 
durability of that product. Once we have that done, then we can 
translate into a reasonable life expectancy of that product. 
That is issue number one.
    And issue number two, you keep talking about the cost. We 
need to be talking about, how best can we scale up in terms of 
low-volume productions to high-volume productions? Once we have 
these two sorted out, recognizing the fact that certain costs 
will come down with experience with certain kinds of insights 
into what we have been doing--so these are the three different 
factors that need to be looked at to get you a decent 
projection of how much it is going to cost.
    Mr. Latta. And I thank the gentleman for his questioning. 
Again, I am sorry that our clocks aren't working here in the 
hearing room, but if you notice when the lights go on for the 
witnesses, that is on the 5-minute. But----
    Mr. Costello. I am sorry if I went over.
    Mr. Latta. No problem at all. We have had that problem from 
the start of the committee hearing. So we appreciate your 
questions.
    The chair now recognizes the gentleman from Oklahoma for 5 
minutes.
    Mr. Mullin. Thank you so much, Mr. Chairman.
    And thank you guys for being here.
    I have been reading lately on the use and the application, 
which seems almost endless on graphene--am I saying that right? 
Graphene? And what I can't wrap my head around is, why aren't 
we hearing more about this? I mean, it seems like there are so 
many possibilities. I read that China is outpacing us in this.
    And I am just not sure, from a practical standpoint, from 
even a military perspective to a construction background, I 
just can't understand, why are we not pushing this? Is it the 
barriers that we have created? Is it the lack of investment 
interest from the public? And I really don't know who wants to 
take this on. Mr. Tour, if you want to take this on or----
    Mr. Tour. So I think certainly those in the field, those 
working in the field know well about this, of how important 
this is and the advances that are occurring across many 
different areas, from biomedicine to structural materials to 
space and aircraft materials. So it is actually quite broad. 
There is a huge amount of press on graphene. The nice thing 
about it is that it is so light and you can make single sheets 
of it and deal with it in this amazing way.
    One of the things that is hurting enormously is the cuts 
that have come or the lack of any increases in Federal support 
for research to do these types of things, and that is why I 
have proposed having these efforts go forward to increase that.
    But it is true that China has 25 percent more patents in 
the area of graphene than does the U.S. But if you look at the 
Chinese equipment, it is way ahead of us now. And so what I was 
telling the committee----
    Mr. Mullin. Equipment in which way? Are you talking about 
the equipment, the ability to produce it?
    Mr. Tour. No, I am talking about the analysis equipment 
just at the university level.
    Mr. Mullin. OK.
    Mr. Tour. So I partner with Chinese teams just to get 
access to their equipment. It is really quite odd that the 
United States needs to go China to get their analyses done. But 
if you look at the equipment budgets that have come to 
universities, they have been cut back enormously in the last 10 
years. And so, in order to do the nano analyses, we have to 
partner with the Chinese in order to do the analyses, and they 
get their names on our papers.
    And they are far more aggressive in starting out young 
people. We don't have the infrastructure to be starting out the 
young people in professorships to do this. We train many 
Chinese, and they are tremendous in our laboratories. And they 
would all stay and become professors and work here. But it is 
very difficult for them to stay, number one, because there is 
very little money to start up the $1 million-plus startup 
packages in the U.S. for young faculty whereas they will get 
that in an instant in China.
    It is the problem of making it tough for them to get their 
green cards here to work. If they have gotten their Ph.D.s 
here, I am all for them. They have been extremely vetted by me. 
They have been extremely vetted by us for the last 5 years. And 
they would come and participate, they never go to our prisons, 
and they pay taxes. And they add tremendously to what we are 
doing. So there are very simple barriers that we could begin to 
deal with these sort of things.
    Mr. Mullin. What do you see as the most practical 
application for graphene?
    Mr. Tour. OK. So it is like asking me, which one of my four 
children do I love the most? It is very hard to do that. It is 
very hard to say a specific application.
    Mr. Mullin. Right now, since Jim is with me, it is him, but 
it will change when the next one is with me.
    Mr. Tour. I understand. I am the same way. I love them all 
the most, whoever is with me.
    In biological applications, it is extreme. So we have seen 
solutions for great improvements in traumatic brain injury and 
stroke using graphene. We have seen the melding of spinal 
cords----
    Mr. Mullin. How is that? What are the advances you have 
seen? How is this application being practical there?
    Mr. Tour. So this was initially funded by the Department of 
Defense, the medical command and--because so many of our 
soldiers were coming back from the Middle East theater and 
Afghanistan with head injuries. And so what it does is these 
are rapid antioxidants that sequester the superoxide that 
usually brings damage to the brain based upon reinfusion of the 
blood after severing of an artery with a head blow.
    And it is the same sort of thing that happens with stroke. 
There is deficient oxygen to the brain. You bring the patient 
to the hospital. Corkscrew is used to open up or chemicals are 
used to open up that clot. Re-profusion of blood, the oxidation 
problems causes the damage to the brain.
    So I can show you pictures of rats that have had their 
entire spinal cord completely severed all the way through. We 
put one drop of a graphene solution and bring that spinal cord 
together. Within 3 weeks, that rat is running and scores a 19 
out of 21 on a mobility scale.
    Mr. Mullin. Oh, my goodness.
    Mr. Tour. And we can do de-icing. We have important 
materials applications. We have applications for fluorescent 
materials, graphene quantum dots. And a lot of this technology 
has left the U.S. These companies have gone overseas.
    Mr. Mullin. On the spine, have there been any studies on a 
human on this?
    Mr. Tour. No, no studies on humans. The studies on humans 
are going to take place certainly overseas because of the lower 
barriers for that overseas. And those studies may, in fact, 
take place this year on humans overseas.
    Mr. Mullin. Well, I think you can see that--one, my time, I 
guess, is out because I saw the red light up there, but you can 
see this panel and this committee is very intrigued. Moving 
forward, I would love to be as helpful as I can. Of course, the 
building composites of it is intriguing, but the human 
composites of it is extremely intriguing. And I want to be as 
helpful. You will find my office being helpful, but I think you 
will find this committee being helpful too. So thank you so 
much for you all's time.
    Mr. Latta. Well, thank you very much.
    The gentleman's time has expired.
    The chair will now recognize the gentleman from Texas for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    And, Mr. Chairman, being the previous chairman of this 
subcommittee, I just want to acknowledge that I feel your pain 
that one of the preeminent technological committees in the 
United States House of Representatives, the greatest 
deliberative body in the free world, does not have a clock. It 
pains me. So I will put my full force behind getting you a new 
clock.
    And I apologize for missing part of the hearing. Obviously, 
there is a lot of stuff going on with the snow day and just the 
fact that there is a lot going on right now.
    But, Dr. Tour and Mr. Murphy, perhaps let me direct my 
questions to you.
    Dr. Tour, I believe you referenced the nanotechnology bill 
that we did here in 2003 and 2004. I was on the Science 
Committee at the time but deeply involved with that.
    And then, Mr. Murphy, in your written testimony at least, 
you reference Cures for the 21st Century Act from the last 
Congress.
    So I realize it is a little bit risky, given the answer you 
gave to Markwayne Mullin from Oklahoma about funding, but can 
you kind of look over the horizon and perhaps give us some 
insight? Here we have two major pieces of legislation: 
nanotechnology, Cures for the 21st Century. What are some other 
things that you see as worthy of your time and attention?
    Mr. Tour. I think, broadly, looking at the funding that was 
available when I started as a faculty member 30 years ago, the 
funding available to faculty members on a per-faculty-member 
basis around the country, and get back to numbers like that. It 
used to be we would write three proposals in order to get one 
funded. Now you have to write 10 to get 1 funded, and people 
are just giving up. They are going overseas. They are leaving 
the country.
    Mr. Burgess. May I interrupt you for a moment?
    Mr. Tour. Yes, please.
    Mr. Burgess. Is that at the NIH or Department of Defense or 
all of the above----
    Mr. Tour. This is across the whole thing.
    Mr. Burgess. OK. Please proceed.
    Mr. Tour. So I think if we looked at what is being put into 
science and engineering training in the United States and look 
at the funding rates per professor and begin to move that back 
up, because we haven't been increasing, and so we have just 
been killed by the cost of research, and the funding has been 
flat. So, overall, we are down more than 40 percent.
    Mr. Murphy. So, Congressman, you ask about 21st Century 
Cures and what to focus on next. Well, there is a lot left open 
in 21st Century Cures. One of the things it does talk about is 
a pathway for new drug discovery tools to be validated. One of 
the things we are focused on is asking you to accelerate the 
adoption of available tools that are already proven versus 
focus on longer term investment for things that won't yet be 
available.
    The opportunity with our technology is to----
    Mr. Burgess. May I ask you to give us a couple of examples 
of the current tools that are available?
    Mr. Murphy. I would mention one that Organovo has produced, 
but there are a number of technologies. But, for example, our 
liver tissue to test safety for drugs for toxicology has a 
growing set of proof on it and has been published on by the 
director of the National Center for Toxicology Research and an 
associate VP of toxicology at Merck as something that is part 
of the future.
    So there is a growing body of evidence around that driving 
adoption of that. And getting clarity at FDA through this 
validation of the drug discovery tools that is laid out in 21st 
Century Cures--there is an opportunity to include that in PDUFA 
VI as well--would give clarity to people who want to use that 
but don't know how the FDA will rely upon it. Giving the FDA 
the ability and the clear guidance to actually be studying 
these and issuing guidance around them will be very helpful to 
achieve the potential of these technologies, which is to lower 
the cost of drugs.
    If you are avoiding these billion-dollar failures for drug 
toxicity safety issues that are late stage in clinical trials, 
if people can instead fine tune the drugs with tools that are 
now available and pick the right ones, you get the avoidance of 
those costs, the reduction of drug costs overall, and you 
enable patients to get safer drugs faster.
    Mr. Burgess. I know Dr. DePinho at MD Anderson Hospital has 
talked about getting to failures quickly so you avoid the time 
and trouble and expense of a long pathway to something that is 
ultimately not going to be successful.
    Now, Mr. Murphy, you also mentioned--and I guess it is in 
relation to your liver work--treating some of the inborn areas 
of metabolism and, of course, the rare diseases that we heard 
so much about during the Cures hearings, and obviously, those 
are very sympathetic populations when they come in and talk 
with us. Is that something that we can actually look to for 
clinical results in the near future?
    Mr. Murphy. That is another indication we are pursuing. So 
I described the bridge to transplant and liver transplant 
capabilities of this tissue patch. The liver tissue patch would 
also be used for inborn areas of metabolisms. So an example of 
that would be something like hemophilia, where people lack the 
factor for blood clotting. The genetic deficiency expresses 
itself in the liver where those factors aren't produced.
    But there is alpha-1 antitrypsin deficiency and a number of 
others, and by giving a patch, we think we can supplement the 
production of that or create the production of that key factor 
inside a patient who suffers from inborn areas of metabolism, 
yes.
    And that will be on the same timeframe: 3 years to clinical 
trials. And it would help us if you could, in the 
implementation of 21st Century Cures, assure the accelerated 
pathway for tissues is clear for folks like us when we bring 
those to the clinical trial stage.
    Mr. Burgess. Very good.
    And, Dr. Tour, I would just be remiss if I did not echo 
what Markwayne Mullin from Oklahoma said: if you have got a way 
take your hexamethyl chicken wire and help people walk again 
with spinal injuries, we want to help you.
    So thank you, and thank you all for your testimony today.
    I yield back.
    Mr. Latta. Well, thank you.
    The gentlelady from Illinois formally passes at this time.
    The chair will recognize the gentleman from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you so very much. I appreciate it, Mr. 
Chairman, and I apologize for being late.
    Mr. Murphy, I understand your technology holds a promise to 
lower the cost of drug development. Can you explain to the 
committee how the use of bioprinted tissues will improve the 
drug development process and ultimately lower cost for 
patients?
    Mr. Murphy. Yes. Thank you for the question, Congressman.
    So what we do is create a tissue that can be used in a 
number of ways. I have mentioned liver toxicity safety as an 
example, but patients are suffering right now because we don't 
have solutions for liver fibrosis. There are animal models for 
fibrosis that have basically been rejected by Pharma because 
they are not predictive.
    So we have done and Pharma companies have taken forward a 
number of drugs into clinical trials to try and treat fibrosis 
only to find out that what was predicted as potentially useful 
in the animal models doesn't pan out. That is a cost that they 
build into their overall infrastructure, and we are paying for 
that cost through drugs that do get approved.
    And if you think about it, it is about avoiding these 
costly failures and getting to the drugs that will work faster. 
That is the overall promise. That same liver tissue we use when 
exposed to known agents that cause fibrosis, like 
methotrexate--and this is published with the University of 
North Carolina researchers--induces fibrosis in a way that is 
clinically relevant and shows a good comparison to what you see 
in a biopsy of those patients.
    So, taking that drug into nonalcoholic steatohepatitis and 
these fatty liver disease fibrosis things, diseases where 
Pharma is very focused now gives the opportunity to actually 
find drugs for those and avoid taking drugs forward that are 
based only on animal models and end up having failures.
    Mr. Bilirakis. Very good. We are here to help as well. I 
appreciate the panel's testimony.
    And I yield back, Mr. Chairman.
    Mr. Latta. Well, thank you very much.
    The gentleman yields back.
    And the chair recognizes the ranking member of the 
subcommittee, the gentlelady from Illinois, for 5 minutes.
    Ms. Schakowsky. I can't tell you how disappointed I am. My 
plane was 3 hours late, and I am really, really interested in 
this panel. I am glad that at least you are here for a few more 
minutes, and I will look over the testimony in the transcript.
    I am concerned about the money that is available for 
research and want to be sure that we have that. Federal funding 
contributed directly to American business by ensuring that they 
can compete successfully around the world is so important. 
Further cuts in funding for education, government support for 
small business and research I think would definitely harm our 
economy and hamper our ability to innovate.
    And even worse, these proposed cuts are coming at a 
critical time as other countries are aggressively ramping up 
their spending on R&D and education. The U.S. is still the 
world leader when it comes to government research funding, but 
at our current levels, China is projected to overtake us in 
just a few years.
    I think we stand at a moment where the United States of 
America can be the exporter of such exciting technologies if we 
actually put the research in. I have the Northwestern 
University, University of Illinois, University of Chicago that 
are looking, doing incredible research for improved and 
nanotechnology at the university, at Northwestern University, 
batteries at the University of Illinois, just amazing work.
    So I want to ask you--and maybe you answered this already, 
I would like to put it on the record again if you have anyway: 
how would a further decline in research funding to American 
universities affect your work? Anybody.
    Mr. Tour. It is already affecting us so that we have not 
seen an increase in several years. It is already affecting us. 
If we are going to go down even more, it is going to be 
devastating to the research science community within the United 
States.
    Our best and brightest are already leaving the country, 
going back to their home countries because there are no startup 
packages for their positions here. And China is paying them 
extremely well. Singapore is paying them extremely well to 
start up their companies.
    And it is not just that. It is our established senior U.S. 
professors that are now leaving and packing up their programs 
and going overseas because it is so hard to get funding here in 
this environment that they can go overseas and get their 
programs funded.
    Ms. Schakowsky. Let me ask you one other thing. I 
understand too for research, start, and stop is very 
devastating, that there has to be a sense of continuum here. Is 
that a problem as well?
    Mr. Tour. That is a problem because once it stops, it is 
very hard to restart, because your students go onto other 
things; they graduate. That is it; the infrastructure is lost. 
And so it is very hard to start and re-stop. There is only 
stop.
    Ms. Schakowsky. Thank you.
    Anyone else?
    Mr. GangaRao. Dr. Tour is talking about how it affects the 
students' funding for the faculty, what have you. I would like 
to take that one step further in the sense that we have 
exported out our manufacturing industry, and we are hurting 
very badly now. Likewise, if we begin to export out our 
research capabilities 10, 20 years from now, you can be assured 
we will be looking to be a Third World country.
    Ms. Schakowsky. Wow.
    Yes, Dr. Rabiei.
    Ms. Rabiei. I also wanted to elaborate that right now the 
research environment is becoming harder and harder for us to 
keep up. I had some colleagues from Europe coming to visit us, 
and we had a meeting starting from 8 o'clock to 7 p.m., and he 
was saying, why do you have this kind of long hours? And I 
said, because, like what Dr. Tour was mentioning, we have to 
write 10 proposals if you want to get 1.
    So if you want to have 5 proposals funded, then you have to 
write 50 proposals, and each one of them take a lot of time if 
you want to write something competitive. On top of that, you 
have teaching and you have other service and writing and 
supporting Ph.D. students and all that.
    So it is really competitive, and the more you cut the 
budget for research, the more it becomes competitive because we 
still have to compete for that, and our chances go down. Like, 
if you look at NSF reports, they say it is 1 out of 13 that is 
funded. Sometimes it is 1 out of 10 is funded. So, obviously, 
in all of this, people write 100 proposals; 90 of them are down 
into trash, and 10 of them are funded.
    Ms. Schakowsky. Does the funding also shape the research 
you do? Because if you know that funding is available, you may 
go in a different direction? I think that could be a not-great 
thing.
    Mr. Tour. It is not a great thing. You are always chasing 
money.
    Ms. Rabiei. Yes.
    Mr. Murphy. Mr. Chairman, can I add a comment to the 
question?
    Mr. Latta. Go right ahead.
    Mr. Murphy. Out-of-the-box thinking, we are supposed to be 
disruptive. After my success in founding the company, I started 
with my own money a nonprofit that gives philanthropic dollars 
in terms of research grants. So Jason Wertheim, who is a 
surgeon at Northwestern, transplant surgeon that does research 
on de novo organs, received a grant from Human Organ Project 
that is nonprofit.
    If there were ways that Congress could--there is not a lot 
of that kind of funding that--private, philanthropic funding 
that goes directly into research grants. There is a lot of work 
that is done for patient education, patient help, and things 
like that.
    If there were ways over the long haul--I don't have 
proposals in mind; this is just coming to me--if there were 
ways that Congress could work toward stimulating more 
philanthropic investment direct in the research grants, some of 
which, honestly--you know, a lot of stuff goes overseas in 
terms of world health and things like that, very noble 
enterprises. But if there were ways to get more direct private 
investment into research in the U.S., that would be helpful 
too, I think.
    Ms. Schakowsky. Let me just say: I agree with you, but on 
the other hand, I don't think private dollars are going to be 
able to make up the difference between an investment by the 
Federal Government. But it is still a good thing.
    Mr. Latta. Well, thank you very much for our panel today. 
You can tell from the questions you received from the 
subcommittee that we are all very, very interested in this, and 
we really appreciate your testimony and your expertise and 
being with us today.
    And in pursuant to committee rules, I remind members that 
they have 10 business days to submit additional questions for 
the record. And I ask the witnesses to submit any responses 
within 10 days upon request or other questions.
    And, without objection, the subcommittee will stand 
adjourned. Thank you very much for coming.
    [Whereupon, at 1:53 p.m., the subcommittee was adjourned.]

                                 [all]



</pre></body></html>
